<html>
<title> - THE PRESIDENT'S PLAN FOR AFGHANISTAN AND PAKISTAN: OBJECTIVES AND RESOURCES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






   THE PRESIDENT'S PLAN FOR AFGHANISTAN AND PAKISTAN: OBJECTIVES AND 
                               RESOURCES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2017

                               __________

                           Serial No. 115-94

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-513PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                           
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
VACANT<greek-l>As of 10/24/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania

                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Alice G. Wells, Acting Assistant Secretary, Acting 
  Special Representative for Afghanistan and Pakistan, Bureau of 
  South and Central Asian Affairs , U.S. Department of State.....     9
Mr. Gregory Huger, Assistant to the Administrator, Office of 
  Afghanistan and Pakistan Affairs, U.S. Agency for International 
  Development....................................................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Alice G. Wells: Prepared statement.................    11
Mr. Gregory Huger: Prepared statement............................    20

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    50
Questions submitted for the record by the Honorable Ileana Ros-
  Lehtinen, a Representative in Congress from the State of 
  Florida, and chairman, Subcommittee on the Middle East and 
  North Africa, and written responses from:
  The Honorable Alice G. Wells...................................    52
  Mr. Gregory Huger..............................................    54
Questions submitted for the record by the Honorable Brad Sherman, 
  a Representative in Congress from the State of California, and 
  written responses from:
  The Honorable Alice G. Wells...................................    57
  Mr. Gregory Huger..............................................    59

 
                  THE PRESIDENT'S PLAN FOR AFGHANISTAN
                      AND PAKISTAN: OBJECTIVES AND
                               RESOURCES

                              ----------                              


                      WEDNESDAY, NOVEMBER 8, 2017

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 10:05 a.m., 
in room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on the Middle East and 
North Africa) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself, Chairman Yoho, Ranking Member Deutch, 
Ranking Member Sherman, each for our opening statements, I will 
then recognize other members seeking recognition for 1 minute. 
We will then hear from our witnesses. And without objection, 
the witnesses' prepared statements will be made a part of the 
record, and members may have 5 days to insert statements and 
questions for the record subject to the length limitation and 
the rules.
    I would like to remind audience members that disruption of 
committee proceedings is against the law and will not be 
tolerated, although wearing theme shirts while seated, seated 
in the hearing room, is permissible. Holding up signs or 
standing up during the proceedings is not. Any disruptions will 
result in a suspension of proceedings until the Capitol Police 
can restore order.
    Thank you, Mr. Police Officer.
    The Chair now recognizes herself for such time as she may 
consume.
    Finally, the third time is the charm. After running into 
hurricanes from Mother Nature and an emergency tax reform 
retreat the first two times that we scheduled this hearing, I 
am glad that we can all finally convene this important and 
timely hearing. I thank our witnesses for their patience and 
their willingness to work with us and coordinate our schedules 
so that we can make this hearing finally happen. So without 
further ado, we will officially kick off our budget hearing for 
Afghanistan and Pakistan in an effort to examine the new 
strategy the President announced 2\1/2\ months ago.
    What I think many of us are interested in hearing is 
exactly what the details are in this strategy--how it will be 
implemented, what are the benchmarks for measuring success, how 
the President intends to use the resources available to 
implement this new strategy. What I did hear when the strategy 
was rolled out was a clear and decisive message that the United 
States is resolved to win, to defeat terror, and that we will 
not focus on artificial timelines for withdrawal. I think that 
is the approach we should be taking reversing our previous 
message to the Taliban, al-Qaeda, and others that they can 
simply wait us out, because we had already predetermined when 
we would leave. But we haven't seen or heard how we plan on 
doing this.
    We do know that this comes with an undefined and open-ended 
financial commitment by the United States as we saw earlier 
this week when the administration sent up an amendment to the 
budget request for additional resources to support 3,500 more 
troops. I don't see how we can defeat these groups without the 
support of Pakistan. I know the President put an emphasis on 
Pakistan needing to demonstrate its commitment to civilization, 
to order, to peace. But the strategy was lacking on details on 
how we are going to get Pakistan to reverse course.
    Pakistan needs to quit hedging its bets and get fully on 
board with the U.S. and Afghanistan. But the strategy was short 
on details on exactly what tools we will use and how to 
convince Pakistan that its interests aligned with what we aim 
to achieve in Afghanistan and Pakistan is the correct move.
    Following her trip to Pakistan with Secretary Tillerson, 
Ambassador Wells, welcome to you, stated that the 
administration ``laid out some very specific expectations of 
how Pakistan can help create the conditions that would help 
bring the Taliban to the table.''
    I hope to hear some of those specific expectations, not 
just on bringing the Taliban to the table, but to address the 
use of Pakistan territory as terror safe havens. I support the 
President's determination to integrate all elements of American 
power--diplomatic, military, economic, and political--to 
protect our interests and achieve our objectives, particularly 
when it comes to leaning on our partners and allies to share 
the financial burden and to provide more troops. A safe, 
secure, and stable Afghanistan, free from terror groups is in 
all of our interests.
    The United States should not be relied upon to bear the 
full burden. Others must contribute to our mutual success. But 
right now, I don't see that willingness from our partners, 
especially when it comes to contributing more troops to NATO's 
mission, and I think the administration hasn't quite gone into 
detail on how we can get the support. I am also concerned that 
the new strategy isn't as clear when it comes to our commitment 
to Afghanistan's future and the U.S.-Afghan relationship.
    Since the year 2002, we have made a concerted effort to 
support and empower women in Afghanistan. And in recent years, 
we have seen that support start to be realized. Dr. Bera and I 
had the honor and privilege to host first lady Ghani, former 
First Lady Bush, and members of the U.S.-Afghan Women's Council 
for a meeting with our committee members and members of the 
Caucus for Women's Issues last week in the Capitol.
    What we heard was that the United States has helped build a 
foundation for women and girls that has improved their lives. 
But now, what we need is to take that to the next level, to 
build on previous successes achieved in large part to the work 
of the U.S.-Afghan Women's Council, help them scale up and meet 
long-term challenges. Women will have an important role to play 
in Afghanistan's future, and I hope to hear how our new 
strategy will leverage that to achieve even greater success.
    The President clearly defined winning as attacking our 
enemies, obliterating ISIS, crushing al-Qaeda, preventing the 
Taliban from taking over Afghanistan, and stopping terror 
attacks against America. But what is the strategy in which to 
do this? What is our plan for addressing the growing Iranian 
influence in Afghanistan? We didn't hear anything in the new 
strategy regarding Iran's military and financial support for 
the Taliban, or of Qatar's continued support for the Taliban, 
and likely other terror groups in the region.
    The President also said that we will work with the Afghan 
Government only as long as we see determination and we see 
progress; that our commitment is not unlimited and our support 
is not a blank check, and the American people expect to see 
real reforms. I am not sure that these are both on the same 
timeline, and I am not sure that we can achieve our goals 
without supporting the Afghan Government. I am also greatly 
concerned with what I see as a dangerous and tragic retreat 
when it comes to our counter-narcotics efforts in Afghanistan.
    The President's request for fiscal year 2018 was nearly 
half of our actual expenditure on these operations in 2016. 
ISIS, al-Qaeda, and so many others finance their operations, in 
large part, through their illicit activities, most notably 
through the money they raise from drug trafficking. We cannot 
just defeat these terror groups kinetically. We need to take 
out their revenue streams.
    Without a commitment to counter narcotics, I don't see how 
we can totally defeat these groups. There are ideas in this new 
strategy that many of us can fully support, but we need to hear 
details on how we will achieve our objectives, and we need to 
know what benchmarks the administration is going to use to 
measure success.
    I hope to hear some of that from our patient panel today, 
and how the President's budget request will be leveraged to 
achieve our goals and fulfill this new strategy.
    And with that, I turn to the ranking member of our Middle 
East Subcommittee, Mr. Deutch, for his opening statement.
    Mr. Deutch. Thank you, Chairman Ros-Lehtinen, and thanks, 
Chairman Yoho, for convening this important subcommittee 
hearing. Thanks, of course, to our witnesses here today from 
State and USAID, whom I fear are undervalued, underfunded, and 
underutilized in the current administration.
    Sixteen years. For 16 years, Americans soldiers have been 
sacrificing their lives in Afghanistan to secure the future of 
that country and to protect our citizens at home. Too often we 
forget this very simple truth, that while we sit here in 
comfort, our young men and women are risking everything for us. 
Just this weekend, we were sadly reminded of this when a Green 
Beret, Sergeant First Class Stephen Cribben, husband, son, and 
father of two, was killed in combat operations South of Kabul. 
This sacrifice, though, includes not just our soldiers, 
sailors, airmen, and Marines, but, also, our diplomats and our 
public servants bringing hope and opportunity through the 
critical work in the State Department and USAID.
    Yesterday, we held a hearing in this room on democracy and 
governance promotion in the Middle East. We cannot secure 
Afghanistan's future and an effective relationship with 
Pakistan that roots out terrorism and empowers civil society 
without these efforts.
    We went into Afghanistan 16 years ago in order to remove 
al-Qaeda, who had been provided safe haven under brutal Taliban 
rule, and we have since made tremendous gains in decimating al-
Qaeda's core infrastructure and helping Afghans reclaim their 
country. We have seen great strides to improve democratic 
governance, promoting women's rights, better maternal and child 
healthcare, and increased access to education. Under the 
oppressive Taliban rule, before 2001, less than 1 million 
Afghan children were in school, and almost none of them were 
girls. Today, more than 9 million children are in school, and 
over 40 percent of them are girls.
    And USAID, which has already spent billions to promote the 
governance, economic growth, and access to education, just 
announced another $75 million project to print and distribute 
135 million approved textbooks for grades 1 through 12 to all 
public schools in Afghanistan. The Afghan people are profoundly 
grateful for these efforts, and so are the members of this 
committee.
    In August, the Trump administration finally unveiled its 
strategy for Afghanistan and South Asia aimed at maintaining 
these gains and ultimately bringing the war in Afghanistan to a 
close. Today, we have a critical opportunity to hear from the 
administration witnesses how that strategy will be implemented 
and what it means for the future of our relationships with 
Afghanistan and Pakistan. I hope our witnesses can also help 
explain the motivation and potential impact of this 
administration's alarming 40 percent decrease in the budget 
request for these two countries from last year.
    In his well-scripted strategy speech, President Trump said, 
``The men and women who serve our Nation in combat deserve a 
plan for victory, they deserve the tools they need and the 
trust have earned to fight and to win.'' I agree.
    But the very next day, Secretary Tillerson seemingly 
contradicted the President by saying that while we may not win 
on the battlefield, neither will the Taliban. And while winning 
the war in Afghanistan has always been an amorphous target, I 
would have hoped for a clearer explanation from this 
administration after its intensive strategy review.
    What is clear to me is that we are facing a very real risk 
of backsliding in Afghanistan. The last few weeks have been 
particularly tough with a number of brutal attacks, including a 
deadly shooting at a TV station in Kabul this weekend by an 
ISIS affiliate.
    U.S. defense officials have plainly described the current 
fight against the resurgent Taliban as a stalemate. The most 
recent SIGAR report shows that U.S.-backed Afghan Government 
maintains control or influence over just 56 percent of the 
country's 400 districts, and that around 10 percent of Afghan 
civilians reside in areas under militant control or influence.
    So where do we go from here? There are those who believe 
that the only way to achieve a stable Afghanistan is through an 
unending American military presence on the ground. Others 
advocate for the immediate withdrawal of every last American 
troop. But serious security experts, I believe, understand a 
third way. The U.S. should continue supporting and 
strengthening the Afghan national defense and security forces 
to ensure that it can one day function independently of foreign 
assistance.
    Ms. Ros-Lehtinen. The Chair notes a disturbance of 
committee proceedings. The room will be in order. I formally 
request that those disrupting the committee stop the 
disruption. The committee will suspend while the Capitol Police 
restore order.
    Ms. Ros-Lehtinen. Thank you, Officer.
    Mr. Deutch is recognized to continue.
    Mr. Deutch. The ANDSF must ensure that it can one day 
function independently of foreign assistance and U.S. 
leadership on the ground. Meanwhile, we need to create 
conditions on the ground that can bring about a negotiated 
political settlement where the Taliban understands that it can 
never win power through its military. But any political 
settlement cannot come at the expense of the human rights and 
basic dignity of the Afghan people. Ultimately, for this to be 
successful, the Afghan Government must become accountable for 
its own future. A stable Afghanistan will require continued 
patience and consistent resources from Congress. Achieving 
success in Afghanistan will not be quick or easy, but we owe it 
to the Americans and Afghans who have sacrificed so much get 
this right.
    I look forward to exploring with our witnesses how the U.S. 
can, in fact, get this right, and address the ongoing 
challenges in Afghanistan from Taliban insurgency, terrorism, 
corruption, economic stagnation, and narco trafficking, as well 
as Pakistan's role in preventing terrorist groups from 
establishing safe havens.
    And I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And now I am pleased to yield 5 minutes for his opening 
statement to the chair of the Asia and the Pacific 
Subcommittee, Dr. Ted Yoho.
    Mr. Yoho. Good morning. And I thank Chairman emeritus Ros-
Lehtinen for spearheading this hearing. And it is nice to know 
that you are going to looking down upon us as these hearings 
continue.
    Afghanistan and Pakistan continue to make up one of the 
United States' most complex foreign policy and security 
challenge. And sadly, in the 16 years of our conflict in 
Afghanistan, the broad strokes of this situation are strikingly 
unchanged. Though the previous administration attempted to 
bring a symbolic close to the combat mission in Afghanistan, in 
reality, America's longest war is still ongoing. American 
soldiers are still fighting and dying in Afghanistan, and the 
cancer of the Taliban and terrorist groups is metastasizing. 
Pakistan is still seen as both a key to resolving the conflict 
and shelter for our enemies.
    While he is no support of unending wars in the Middle East 
and South Asia, President Trump observed in his speech that the 
consequence of a rapid exit and both predictable and 
unacceptable. In announcing our new national strategy for the 
conflict, the President laid out an important truth that should 
have guided our policies all along, that despite the enormous 
cost, we can't leave without resolution. Doing otherwise would 
create a vacuum filled instantly by terrorist threats, not just 
to the United States, but to the free world. Our new strategy 
must include civilians as well as military efforts to secure a 
lasting victory in Afghanistan and for the Afghanistan people, 
and a sustainable relationship with Pakistan. There are many 
important questions to be answered about how the Department of 
State and the U.S. Agency for International Development will 
work within the new strategy and contribute to its eventual 
success. The administration has proposed reconsolidating the 
special representatives for Afghanistan and Pakistan back into 
the bureau of the South and Central Asia.
    I hope Ambassador Wells, the acting head of both offices, 
will share her thoughts whether this will increase operational 
efficiencies, and contribute to more region-wide strategic 
thinking. I am particularly interested in hearing more about 
whether this administration will tolerate Pakistan's aiding and 
abetting of terrorist groups within its borders. Pakistan has 
been one of the largest U.S. foreign assistant recipients in 
the post-911 period. But despite giving tens of billions of 
dollars in counterterror assistance over the years, terrorist 
organizations continue to operate with impunity in Pakistan.
    We have seen some promising signs that this administration 
will no longer put up with Pakistan's friendliness toward 
terror groups, and I hope to hear this new posture is reflected 
throughout the budgetary planning. A broader question is how 
reduced resources will be redirected and whether the 
administration's reduced focus on nation-building, which the 
President mentioned in his speech, plays into foreign 
assistance budgeting for Afghanistan and Pakistan. The 
administration's budget for these two countries reflect 
substantial cuts, even to accounts which have a strong nexus to 
defense and security, including INCLE, NADR, and FMF.
    So I thank the witnesses for joining two subcommittees 
today to share their knowledge on these and other important 
questions, and for working with us on scheduling to hear this 
hearing. And I look forward to their testimony.
    Ms. Ros-Lehtinen. Thank you so much, Dr. Yoho.
    I now will recognize members for their opening statements, 
starting with Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen, and 
Chairman Yoho, and Ranking Member Deutch, and Ranking Member 
Sherman, for holding this joint subcommittee hearing exploring 
the President's Plan for Afghanistan and Pakistan. Thank you to 
our witnesses for being here today to discuss this critical set 
of issues.
    For 16 years, the United States military has been deployed 
to South Asia in response to the terrorist attacks of September 
11. Since the beginning of military operations in October 2001, 
our Nation's objectives have evolved several times creating 
more and more uncertainty as to the future of Afghanistan and 
America's role in that country's continuing challenges. Most 
importantly, since October 2001, nearly 2400 American lives 
have been lost in military operations. We owe it to the brave 
men and women and their families who have made the ultimate 
sacrifice to clearly define what our Nation's role is in 
Afghanistan and Pakistan. This includes a clear explanation of 
the President's plan for Afghanistan and Pakistan, detailing 
the strategy and mission, and what it will take in terms of 
resources and personnels to achieve the objectives set forth in 
that mission successfully.
    I look forward to hearing from our witnesses today as they 
can help inform this process. And with that, I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cicilline. Mr. 
Rohrabacher of California.
    Mr. Rohrabacher. I would hope that we are going to be doing 
things differently to achieve a different outcome. We have been 
there for 16 years. I have spent a lot of time in Afghanistan 
over my life, and been involved in its policy. Madam Chairman, 
we have had the wrong policy. Obviously it hasn't worked. And 
unless we are--for example, we mentioned going to hold Pakistan 
more accountable. Unless we are going to eliminate poppy 
production, which we have not done, all of this time there--
Taliban are still making their money, hundreds and millions of 
dollars off opium production. We have not stopped that. We had 
the ability to do so.
    There are a number of things that needed to be done. We 
have written a constitution and foisted upon the people of 
Afghanistan that is totally contrary to their culture. And 
while it is important for us to defeat the forces of radical 
Islam, including the Taliban, either we do these other things 
right instead of just relying on the military, we are doing a 
great disservice to the people of Afghanistan and the people of 
the United States.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Dr. Bera of California.
    Mr. Bera. Thank you, Madam Chairwoman.
    You know, along with the chairwoman, as she mentioned, last 
week, we had the ability to meet with First Lady Ghani and 
First Lady Laura Bush to discuss some of the problems that are 
facing women and girls in Afghanistan but also to discuss some 
of the successes. One thing I think we can be proud of as a 
Nation is that investment in a generation of girls. By USAID's 
own statistics, USAID has helped support 3.5 million girls in 
school and has helped increase the number of female health 
workers in Afghanistan. You know, in 2002, only 25 percent of 
the health facilities had a female health worker. In 2015, 85 
percent do. That is something we can be proud about. As a few 
of my colleagues have indicated, though, as we start to change 
our mission in Afghanistan, we have got to look at regional 
partners. And it would be difficult for us to think about 
budgets with Afghanistan and Pakistan without talking about 
India as well, and India's ability to create some stability in 
the region.
    I look forward to the testimony and look forward to 
thinking about India's role in that region.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Kinzinger is recognized.
    Mr. Kinzinger. Well, thank you, Madam Chair. And to the 
guests, thank you for being here. It is going to be a good 
hearing. I just think--Michael Waltz, who is a friend of mine, 
he was a Green Beret in Afghanistan, who wrote a good book. He 
made the point that at the moment, the prior administration 
announced a surge in Afghanistan but had an end date on it. He 
said at that point, the conversation he was having with the 
locals ended because they basically said, Look, we really like 
Americans, we like you here, but we know you are leaving now. 
And it really set our policy back quite a bit.
    I think this President coming forward and saying we are not 
going to be defeated in Afghanistan, people know that--I think 
we all know that we won't be defeated on the battlefield. The 
only time we will be defeated is with our will, if that 
happens. And, look, Afghanistan is not going to be a smiley 
unicorn facility if we leave. It is going to be even worse, and 
we are going to see another 9/11 type attack being planned. 
Unfortunately, we are finding ourselves engaged in generational 
war on terror that I think will last the rest of my life. I 
wish it was different, but it is the reality.
    So Madam Chair, I appreciate you doing this, and I look 
forward to all the great insights from our guests.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Kinzinger.
    Ambassador Wagner.
    Mrs. Wagner. I thank our esteemed chairman for organizing 
the hearing today.
    The President said in his August speech on South Asia that, 
and I quote, ``We can no longer be silent about Pakistan's safe 
havens for terrorist organizations.'' And he made clear that 
the U.S. would fulfill its mission in Afghanistan and give 
commanders the green light to target terrorist and criminal 
organizations. I welcome the President's policy change on 
Afghanistan and Pakistan, and look forward to working with the 
administration on improving the U.S. security approach in South 
Asia.
    However, I believe that any policy and funding upheavals 
should include intentional inclusion of civil society 
organizations and serious reform of the IMET program with 
Pakistan to emphasize human rights and good governance.
    I thank you, and I look forward to your statements, and I 
thank the chair.
    Ms. Ros-Lehtinen. Thank you so much, Madam Ambassador.
    Does any member wish to seek recognition?
    Seeing no other members seeking recognition, I am delighted 
to finally introduce our witnesses. Thank you for your patience 
with the rescheduling.
    We are delighted to welcome Ambassador Alice Wells, the 
Acting Assistant Secretary of State for the Bureau of South and 
Central Asian Affairs and the Acting Special Representative for 
Afghanistan and Pakistan. Prior to serving in this position, 
she served as the United States Ambassador to Jordan, special 
assistant to the President for Russia and Central Asia, and 
Executive Assistant to Secretary of State Clinton. Thank you 
for your lifelong service, and we look forward to your 
testimony, Ambassador Wells.
    I am also delighted to welcome Dr. Gregory Huger, who 
serves as USAID's Assistant to the Administrator for the Office 
of Afghanistan and Pakistan Affairs. Mr. Huger has served in 
various capacities within USAID, including Pakistan's Deputy 
Mission Director, Afghanistan's Senior Development Advisor in 
Regional Command East, and Mission Director for Ukraine and 
Egypt. Thank you for being here. We also look forward to your 
testimony.
    As I said, your written statement will be made a part of 
the record. And please feel free to summarize.
    We will begin with you, Ambassador Wells.

  STATEMENT OF THE HONORABLE ALICE G. WELLS, ACTING ASSISTANT 
 SECRETARY, ACTING SPECIAL REPRESENTATIVE FOR AFGHANISTAN AND 
  PAKISTAN, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS , U.S. 
                      DEPARTMENT OF STATE

    Ambassador Wells. Chairwoman Ros-Lehtinen and Chairman 
Yoho, Ranking Member Deutch, Ranking Member Sherman, and 
members, thank you for the opportunity to discuss the 
administration's strategy for South Asia.
    At the top of my testimony, I want to recognize and thank 
the thousands of U.S. servicemen and women, diplomats, 
development specialists, intelligence professionals, and 
international partners who are working every day to enhance our 
collective security. I have submitted the longer written 
testimony for the record. But here today, I would like to 
emphasize a few points about our approach to the region.
    For Afghanistan, it is conditions-based. The President has 
made clear that our true presence will be driven by conditions 
on the ground, and not arbitrary timelines or troop ceilings, 
and that the ultimate goal is a political settlement that 
stabilizes Afghanistan and denies sanctuary to those who 
threaten us. The Taliban will come to understand that the 
United States has the resolve to deny them success on the 
battlefield, and their best option is a negotiated political 
settlement with the Afghan Government. The Afghan leadership 
has welcomed the President's recommitment and recognizes that 
the strategy cannot succeed unless the Afghan government does 
its part.
    During the Secretary's October visit to Afghanistan, 
President Ghani and CEO Dr. Abdullah briefed on the ambitious 
reform goals endorsed in the Kabul compact, including measures 
to fight corruption, promote the private sector, combat ghost 
soldiers and police, and ensure the integrity of the electoral 
process. Credible elections in 2018 and 2019 will demonstrate 
to the Afghan people and the Taliban that the central 
government represents the hopes and aspirations of all Afghans. 
Our rock-solid commitment to Afghanistan's security provides 
the time and space for Afghanistan to build its political 
future.
    Our strategy is also regional in nature. A sustainable 
solution to the conflict in Afghanistan requires more than just 
a responsible and democratic Afghan Government. It requires the 
collective efforts of Afghanistan's neighbors and the 
international community. To be economically healthy and 
politically secure, Afghanistan must be anchored in a region 
that respects territorial integrity and sovereignty, promotes 
government stability, and works toward economic prosperity.
    In October, we restarted the Quadrilateral Coordination 
Group convening Afghanistan, Pakistan, China, and the United 
States to discuss a path toward reconciliation in Afghanistan. 
We will vigorously pursue international and regional efforts to 
build broad support among the region to increase pressure on 
the Taliban to come to the negotiating table. Pakistan, of 
course, is a central part of our strategy. On the one hand, it 
has suffered greatly from terrorism and has fought back against 
militants' intent on undermining the Pakistani Government. We 
recognize the sacrifices that Pakistan has made in its progress 
against some of these terror groups. Pakistan has been a 
partner with us in the past when they helped decimate al-Qaeda, 
and Pakistan is cooperating with us in our efforts to disrupt 
ISIS.
    But we look to Pakistan to ensure that its territory is not 
a safe haven for the Taliban-Haqqani network and other groups 
seeking to destabilize the region. We have also called on 
Pakistan to use its influence to create the conditions that 
will bring the Taliban to the negotiating table.
    Pakistan's support in securing the release of Caitlin 
Coleman; her husband, Joshua Boyle; and their three children 
from captivity showed what we can accomplish when we work in 
partnership. Indeed, a Pakistani officer was injured while 
pursuing the hostage takers. However, the fact that the 
Coleman-Boyle family was in Pakistani territory highlights that 
Pakistan still has much to do to meet its commitment to take 
action against all terrorists without discrimination.
    As long as terrorists continue to operate within Pakistan's 
borders, they pose a threat to Pakistan's own stability as well 
as to the security of American citizens and servicemembers in 
the region. Pakistan has said that it is committed to the war 
on terrorism and seeks a strong relationship with the United 
States.
    We look for tangible evidence that Pakistan is adopting an 
indiscriminate posture against groups that threaten the 
region's stability, including the Taliban, the Haqqani network, 
Lashkar-e Tayyiba, and Jaish-e Mohammed. The Secretary conveyed 
specific requests on how Pakistan could make this happen. And 
he made clear that if Pakistan decides not to meet these 
requests, we will adjust our strategy accordingly. Pakistan has 
made important commitments to improve relations with 
Afghanistan. Afghanistan reasonably asked that the Taliban 
insurgents be forced to fight on Afghanistan soil without 
recourse to safe haven, respite, and regeneration in 
neighboring states.
    Finally, our strategy prioritizes the reduction of tension 
between India and Pakistan, which drives much of Pakistan's 
security calculus. On his trip to the region, Secretary 
Tillerson encouraged India and Pakistan to keep channels of 
communication open. The region and the world looks to both 
countries to safeguard against a nuclear conflict in South 
Asia.
    Thank you for your time, and I look forward to a candid 
conversation today.
    [The prepared statement of Ambassador Wells follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Ambassador Wells.
    Mr. Huger.

STATEMENT OF MR. GREGORY HUGER, ASSISTANT TO THE ADMINISTRATOR, 
  OFFICE OF AFGHANISTAN AND PAKISTAN AFFAIRS, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Huger. Chairman Ros-Lehtinen, Chairman Yoho, Ranking 
Member Deutch, my Congresswoman from my home district in St. 
Louis, Congresswoman Wagner, members of the subcommittee, thank 
you for inviting me here to discuss the administration's plans 
for USAID assistance to Afghanistan and Pakistan under the 
South Asia strategy. It is an honor to appear before you with 
Acting Assistant Secretary for South and Central Asia, 
Ambassador Alice Wells, to discuss U.S. assistance that 
supports our national security.
    I want to begin by thanking, as the Ambassador did, the men 
and women who have served in the U.S. military and our civilian 
agencies and their families who served and sacrificed in 
Afghanistan and Pakistan, and the thousands of Afghan and 
Pakistani citizens who have served alongside us.
    As was said, I bring to this position, which I have held 
for 2 months, experience within USAID and in Afghanistan and 
Pakistan, 5 years on the border, three of them based in Bagram 
covering eastern Afghanistan, and two of them working FATA and 
Khyber Pakhtunkhwa through the consulate in Peshawar.
    In the 2 months that I have been in this position, I have 
had the opportunity to travel to Pakistan and Afghanistan to 
meet our staff and many of our local counterparts, many of whom 
I have known for years.
    When I went to Afghanistan, I was the head of the U.S. 
delegation to the senior officials meeting, which was the 
Afghan Government meeting with representatives of 38 countries 
that support Afghanistan meeting to review progress over the 
year, since commitments to support Afghanistan's development 
were made in Brussels. My takeaway from that meeting was that 
we do have a real partner in the national unity government.
    President Ghani was very articulate in his praise of the 
South Asia strategy. That was shared by his team as well as the 
representatives from the other countries attending the meeting. 
His focus was on shifting from donor assistance to private 
investment as a long-term solution for Afghanistan and, in that 
context, addressing corruption and the other impediments to the 
functioning of a market economy in Afghanistan, including, of 
course, security. He also, together with his wife, First Lady, 
emphasized the importance of the empowerment of women. And one-
third of the conference was spent on that subject.
    My takeaway from my visit of last week to Pakistan, 
including visits to Islamabad, Peshawar, and Karachi was the 
strong support for the mainstreaming of FATA in a way that is 
not yet clearly articulated but which seems to be a priority 
for political parties, military, and the citizens more broadly. 
And I was very pleased to see the strong support in civil 
society for the effort to give resilience to communities to 
resist extremism, particularly among the youth.
    Now, in Afghanistan, and we will talk more about this, I am 
sure, we are focused on three points: Helping sustain the gains 
in health, education, and women's empowerment; helping build 
stronger bonds between the government and the citizens through 
service delivery, credible elections, and reduced corruption; 
and through supporting increased private sector investment, 
particularly in the market areas of the larger urban areas, to 
create opportunity for the people and revenue for the 
government.
    In Pakistan, we are focused on three main points: First, 
normalizing the border area, stabilizing the border area, and 
that includes mainstreaming FATA in whatever way the Pakistanis 
decide to do it and reincorporating those people who have 
returned; the second is supporting communities to become 
resilient to violent extremism; the third is to support private 
sector investment to create opportunities for the youth bulge.
    Thank you for having me here. I am delighted to be here and 
look forward to answering your questions.
    [The prepared statement of Mr. Huger follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much to both of you for 
your patience and for being here.
    Ambassador Wells, it was reported last week that there is a 
proposal on the table to have the Office of the Special 
Representative for Afghanistan and Pakistan in the White House. 
The report also confirmed that the actual office had been 
dissolved at State with the duties and functions fully 
integrated into the SCA Bureau.
    Do you have any update on that decision? That would seem to 
many of us that State is no longer a key player when it comes 
to Afghanistan and Pakistan.
    Ambassador Wells. I am not aware of a measure to move SRAP 
to the White House. But within the State Department, we have 
completed a reintegration, a combination of the South and 
Central Asian Bureau with the Afghanistan and Pakistan offices. 
And this has been an initiative that the State Department has 
sought since 2016. It reflects very much this administration's 
view that the answer to Afghanistan is a regional one that we 
have to look beyond the stovepipe of AFPAK and understand how 
the region as a whole is going to contribute to the 
stabilizing.
    Ms. Ros-Lehtinen. Thank you. Well, please keep us updated 
on any moves that way. Thank you very much.
    Dr. Bera and I were happy to host First Lady Ghani, First 
Lady Bush, and many members of the U.S.-Afghan Women's Council 
last week. And they expressed gratitude for the assistance from 
the United States, particularly with the investment that we 
have made together in women's programs. But they suggested that 
we begin thinking about more long-term planning rather than 
implementing short-term programs. USAID has its Promote Program 
that recognizes the important role that women will have in 
Afghanistan's future. With Promote now about halfway through 
its 5-year mandate, are we starting to plan for the next 
iteration using what we have learned to help inform the next 
stage when Promote ends for more long-term programming, Mr. 
Huger?
    Mr. Huger. Yes, we are.
    Ms. Ros-Lehtinen. Thank you very much.
    Poppy cultivation. A lot of us have discussed it. Up again 
last year. Eradication down drastically. Afghanistan produces 
about 75 percent of the world's opium. And not only does this 
cause a serious health crisis, but it also provides a great 
deal of funding for terrorists and incentivizes corruption and 
crime, yet the budget request for Afghanistan for the 
international narcotics control and law enforcement counter-
narcotics effort was nearly cut in half to about $44 million, 
from the nearly $80 million in fiscal year 2016 actuals. How 
can we justify this great reduction in the request for the 
international narcotics control and law enforcement counter-
narcotics program, while we know that production is up, and we 
know that terror groups fund their activities from drug 
trafficking?
    Ambassador Wells. There is a relationship between drug 
production and security. And right now, the overwhelming 
majority of hectares of opium grown is under Taliban control or 
in contested areas. And so critical to our efforts to counter 
narcotics are going to be steps to resolve the essential 
conflict with the Taliban.
    The reason you have seen a decline in funding under INL for 
counter narcotics is because over the years, we have managed to 
build a capacity within the government of Afghanistan. We have 
stood up under the ministry of interior, a counter-narcotics 
police force. There are two specialized units that are also 
working in close coordination in training with the DEA. And so 
we want to see a shift, because we are not there for permanent 
nation-building. This is about building the Afghanistan 
capacity.
    I think in terms of strategy right now, the idea is not to 
go after the lowest person on the food chain, the farmer, but 
to go after the processing centers and the facilities that are 
the next level up, because it is critical to disrupt Taliban 
financing.
    Ms. Ros-Lehtinen. Thank you so much. I have another 
question about infrastructure projects, but we have Nikki Haley 
coming in at noon, so I will yield back the balance of my time 
and turn to Mr. Deutch, the ranking member.
    Mr. Deutch. Thank you, Madam Chairman.
    Since 2001, the United States has provided over $100 
billion in economic and security assistance to Afghanistan. Can 
you comment on what you believe are the most important outcomes 
of this aid in the areas of economic development, gender 
equality, human rights education, health democracy, the rule of 
law. What are the most important security accomplishments from 
this aid? What have we gotten for $100 billion? Both of you.
    Mr. Huger. If I could begin answering from the USAID 
perspective. As you said in your introductory comments, the 
progress in education, particularly of girls, has been very 
important. Very difficult, but very important. And that is 
something that we will continue.
    The effort that Chairman Ros-Lehtinen mentioned in the 
Promote Program, which is focused on 85,000 women, who have at 
least a high school education, to help them play important 
roles in business, in civil society, and in government, has 
gotten off to a very good start. The infrastructure efforts 
that we have made, challenging as they have been, have produced 
a road transportation network that meets minimum requirements 
of the country, if maintained.
    We have made contributions to the production, distribution 
of electric power, and we have helped Afghanistan make 
significant gains in health. Where, though, there is a long way 
to go, health care is available to a very large number of 
Afghans when it was not before.
    These and many other concrete accomplishments are the 
result of our work in Afghanistan. It is definitely a work in 
progress. It is definitely facing opposition, but it is 
definitely worth continuing to achieve the outcomes envisioned 
in the South Asia strategy.
    Mr. Deutch. Thanks.
    Ambassador Wells, I am going to go a slightly different 
direction in my remaining time.
    I think it is safe to say that the members on this dais all 
agree that there is no purely military solution to the war and, 
therefore, reconciliation of some sort is also going to be 
needed. The President said, Perhaps it will be possible to have 
a political settlement that includes elements of the Taliban in 
Afghanistan. Can you tell us what that political settlement 
would look like from the administration's perspective? And what 
would the key impediments to the Taliban seeking to participate 
in the reconciliation process be? And is there any way for the 
Taliban to be a part of this that wouldn't jeopardize Afghani 
human rights?
    Ambassador Wells. The administration has always said not 
preconditions to negotiations, but end conditions. And the end 
conditions have been a cessation of violence, a cessation of 
ties to terrorist networks, and respect for the Constitution, 
including the provisions for women and minorities. And that 
continues to be the case.
    You know, this is going to be--there is necessarily going 
to have to be an Afghan-Afghan conversation. President Trump 
was very clear that we are not there to micromanage how Afghans 
decide among themselves to live and to regulate their political 
life. And so, I think this has been a remarkably open approach 
by successive administrations, including the Trump 
administration. The impediments are, you know, foremost, the 
unwillingness to date of the Taliban to enter into negations 
with the Government of Afghanistan, whether privately or 
publicly. And so the challenge right now--the question is not 
whether we are prepared to support, you know, an Afghan-led and 
owned peace process. We are. And we have said that. And 
Secretary Tillerson has been quite explicit, that there is a 
role and a place at the table for moderate Taliban. And we look 
for them to join this process.
    You know, the task right now is how do we get the Taliban 
to the negotiating table? And there are two parts to that. 
There has to be increased military pressure. For the last 4 
years, they were waiting for us to leave. You know, not 
unreasonably, given that that was the policy of the prior 
administration. But, second, there has to be political pressure 
and coordinated international pressure on the Taliban. And that 
includes ensuring that the Taliban political commission in Doha 
is doing its essential function, which is facilitating, you 
know, peace negotiations.
    Mr. Deutch. Okay. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Dr. Yoho is recognized.
    Mr. Yoho. Thank you, Madam Chair.
    Ambassador Wells, earlier this week, the President issued a 
budget amendment with respect to the DOD budget. It called for 
additional funding for troops. He made it clear that he will 
not talk about troop levels, but that we will ask our NATO 
allies and global partners to increase their troop levels to 
support us. Does NATO have the level troops it has deemed 
necessary for the Afghan mission?
    Ambassador Wells. Our NATO partners have been interested in 
working with us to ensure the success of this South Asia 
strategy.
    Mr. Yoho. I am sure they are interested, but have they 
increased the level of commitment since the change of 
leadership in our country?
    Ambassador Wells. We are confident that we are going to get 
increased levels of support from our NATO partners.
    Mr. Yoho. As of yet, you have not seen that?
    Ambassador Wells. No. The process is ongoing, and we are 
confident that we are going to see that increased support.
    Mr. Yoho. Okay. You have answered my second question, too, 
then.
    Is the current request for $1.13 billion for Afghanistan 
and Pakistan enough to implement this new strategy that we 
have?
    Ambassador Wells. Yes. We believe that the $780 million, 
approximately, for Afghanistan, is an appropriate sum that 
represents about an 18 percent reduction from our previous 
request, but continues to build out in the essential three 
areas that Mr. Huger identified as being the pillars of our 
approach.
    Mr. Yoho. And the normalizing and stabilizing border areas, 
resilient communities, and the private sector investments, you 
both agree that is where we need to focus on?
    Ambassador Wells. Yes. From the State Department's 
perspective, very much so. And from the President's speech, the 
idea that this is not a blank check, that we need to help 
Afghanistan shift from a donor economy to a private sector 
fueled economy.
    Mr. Yoho. I am glad to hear you say it is not a blank 
check. You know, I have got in front of me--and, Mr. Huger, I 
am going to come to you.
    Pakistan is among the leading recipients of U.S. foreign 
assistance in post-9/11 period. Congress appropriated more than 
$33 billion in assistance from 2002 to 2016, including $10.5 
billion in economic development, humanitarian aid. In addition, 
there was an extra $14 billion in CSF funding which is the 
Coalition Support Fund.
    When I look at that kind of an investment, you know, I 
always wonder what kind of return on an investment did we get? 
And so, I think one of the things that we can do is look at 
approval ratings. And it is interesting to me, with that kind 
of money that the American taxpayers have allowed to be spent 
by the people in government; in 2015, 22 percent people that 
were polled in Pakistan viewed the United States positively. 
Twenty-two percent. And I guess we should be excited about 
that, because that is up from 14 percent in 2014. That is about 
where Congress is. That is according to the Pew Research. 
However, the thing I find interesting is 78 percent of the 
Pakistanis polled view China favorably with only 3 percent 
responding unfavorably. You said you have been in that region 
for 5 to 6 years. What are we doing to change our tactics to 
get a better response for the money that the American taxpayers 
are spending?
    Mr. Huger. Thank you, Congressman Yoho, for the question, 
it is a very important----
    Mr. Yoho. I am going to report this back to Lauren.
    Mr. Huger. Yes, indeed.
    The focus of our strategy is in the national security 
interest of the United States and, going forward, to identify 
things that are also in the national security interest of 
Pakistan. It is not a popularity contest at a popular level 
where, from one month to the next, the polling would show what 
percentage of people love or hate us. It is about our national 
security, which is tangentially related to the popularity, but 
not directly.
    So our focus on helping secure the border, helping 
Pakistan, as it seems to want to do now, to find a way to 
mainstream that ungoverned space called FATA into the province 
of Khyber Pakhtunkhwa, or in whatever way they want to do it, 
is absolutely transformational from a historic perspective. 
Making that a success, and with it, helping to reabsorb or 
reintegrate 1.6 million people who were displaced by conflict 
from FATA and are now coming back, 85 percent are back, the 
rest will be returning, those are things that would make a 
different Pakistan. That is good for Pakistan. That is good for 
us. That is good for the region. So it is not a popularity 
contest. It is about national security of the United States and 
the countries where we are working.
    Mr. Yoho. I appreciate you. Ambassador Wells.
    Ambassador Wells. If I could just add, you know, these 
polls capture something, and oftentimes it is a response to a 
policy issue that Pakistanis disagree with. But if you ask 
Pakistanis, where do you want to study? Where would you like to 
work? Where would you like to get medical care? I mean, the 
pull of America and the West is quite strong. And I think as 
we, you know, continue our engagement with Pakistan, it is 
really about how does Pakistan want to be a member of this 
international community and the expectations not only we hold, 
but our international partners hold in asking Pakistan to take 
these specific steps to combat terrorism.
    Mr. Yoho. Thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    And we are so pleased that our subcommittees have been 
joined by the ranking member of the full committee, Mr. Eliot 
Engel of New York. And I am very pleased to yield whatever time 
he may consume to him right now.
    Thank you, Mr. Engel.
    Mr. Engel. Well, thank you. Thank you, Madam Chair. And I 
want thank you, and I want to thank Mr. Yoho and also Mr. 
Sherman, Mr. Deutch, for letting me participate today in making 
a statement.
    I wanted to ask Ambassador Wells a few questions. And, 
Ambassador, thank you for your service and for your time this 
morning.
    I want to talk about Afghanistan, because we are 16 years 
into the war there. After all that time, this conflict 
obviously remains our most important foreign policy priorities, 
and there is an enormous amount at stake, obviously, for our 
country, for Afghanistan, for the region. In August, President 
Trump announced his South Asia strategy at Fort Myer, Virginia. 
He told the world that we will win and that we will defeat them 
and defeat them handily. It was a lot of tough talk, but it 
really left me with more questions than answers, because we 
don't know the details, we don't know how this plan will bring 
the conflict to an end. And I want to just talk about that.
    You know, I voted for all the AUMFs back in 2001, 2002. And 
I am really very much chagrined that we are still operating on 
that. We should have this Congress attack foreign policy and do 
what is right, rather than relying on a Congress when I was 
here, but I would venture to say 80 to 90 percent of the 
members still here were not here back then. So I have some 
questions.
    Madam Ambassador, is the administration's position that the 
war in Afghanistan will come to an end by military victory won 
on the battlefield?
    Ambassador Wells. No. Victory is a sustainable political 
settlement that results in a stable Afghanistan whose territory 
is not used to threaten the United States and our partners.
    Sir, I had the opportunity to accompany the Secretary on 
his trip to Afghanistan, Pakistan, and India. And there I was 
able to see, you know, the impact of the strategy in each of 
those countries. For Afghanistan, it is a recommitment to that 
country, the knowledge that we are prepared to stay with them 
as they have to undertake what are very difficult and necessary 
reforms. It is telling the Pakistanis that we are not leaving, 
it is not 1989, that you need to count on our presence. And 
instead of hedging, you know, identify how to mediate the 
legitimate interests that you have in Afghanistan at a 
negotiating table. And in India, it is recognizing the role, 
positive role, that India can play in Afghanistan's economic 
stabilization.
    And so, I found across, you know, the region, the strategy 
was extraordinarily resonant. And I do believe that after 4 
years of counting us out, we have changed the dynamic, and we 
have changed the conversation, and we are going to see progress 
as a result.
    Mr. Engel. Thank you. Let me ask you this: Has the 
administration provided American troops in Afghanistan 
additional authorities beyond the train, advise, and equip 
mission essentially putting them back into more of a combat 
role?
    Ambassador Wells. The mission is still a train, advise, and 
equip. I think both Secretary Mattis and the President have 
made mention to authorities being provided that will allow for 
more aggressive targeting. That is not really my area of 
expertise, so I do defer to my defense colleagues. But the 
number of troops, the commitment of our troops, and the ability 
of our troops to, you know, actively and aggressively assist 
the Afghan forces will make a difference.
    Mr. Engel. Well, Secretary Tillerson said this is a war 
that will come to an end through a negotiated settlement. He 
said, We will not win, but the Taliban won't win either. If 
that is true, why are we, then, sending more troops to 
Afghanistan?
    Ambassador Wells. As Secretary Mattis testified, and I 
believe General Nicholson, the conflict has been stalemate, a 
stalemate generally in favor of the government, but a 
stalemate. And it had not--the Taliban have not yet been 
convinced that they are not going to win on the battlefield. 
And so the provision of additional forces to enhance the train, 
advise, and assist and to push it down to a lower level we 
believe is going to be quite significant in making a difference 
on the battlefield, along with the additional air assets that 
are being provided.
    And so, as I said at the outset, a key impediment to 
achieving a peaceful negotiated settlement is the unwillingness 
to date of the Taliban to engage directly with the Government 
of Afghanistan. We have to change that calculus of the Taliban 
using both military and political means.
    Mr. Engel. You mentioned earlier that the administration 
believes the war will come to an end through a negotiation. So 
let me ask you: What is the administration doing to prepare for 
this negotiation, and why aren't we more focused on touting a 
potential peace process?
    Ambassador Wells. We remain very active in all of the 
regional architectures that have existed and have been 
developed to reinforce a message that supports a negotiated 
political solution. I just recently hosted a quadrilateral 
meeting with the Chinese, the Afghans, and the Pakistanis. I 
look forward to participating in the Heart of Asia Conference 
that is coming up; the Kabul process; there is an international 
contact group; there are a variety of diplomatic initiatives 
that continue to work very closely. But fundamentally, we need 
to get the parties to agree to talk to one another directly. 
And that involves changing the Taliban's calculus.
    We also believe--I also believe that we need to improve the 
relationship between Afghanistan and Pakistan to see better 
cooperation between the two countries. And so we have been 
supportive of General Bajwa, chief of army staff's recent visit 
to Kabul, his commitment to undertake specific initiatives with 
his Afghan counterparts.
    So on a variety of levels, bilaterally, trilaterally, and 
then larger international groupings, we are pursuing this 
effort, sir.
    Mr. Engel. I don't believe that we should cut and run in 
Afghanistan. I don't believe that we shouldn't care about what 
happens there. Obviously, it is very important. But I think you 
can understand that many of us are worried about getting bogged 
down in a situation where we can't get out and use it more and 
more as justification. And as the years go on and on, and we 
are still going back to an AUMF that is old and antiquated--and 
by the way, I said this under the previous administration and 
under this administration, I would say it under any 
administration--I do think Congress has to play a much more 
important role. We are a coequal branch of government, and we 
should be playing a more important role if, indeed, the effect 
of our policy is going to be to wear us down and keep us there 
in a war that we cannot win, that admittedly we cannot win. You 
know, what changes? What changes 5 years from now, 10 years 
from now, 15 years from now?
    Ambassador Wells. And I think the steps that the government 
of Afghanistan is taking and needs to take to enhance its 
inclusivity to make itself a more attractive partner to 
demonstrate that the central government is representative of 
all the Afghan people are critical. And so, both President 
Ghani and Dr. Abdullah, when they met with Secretary Tillerson, 
discussed the Kabul Compact. The 200 Metrics that the Afghans 
themselves have developed, to be able to measure specific 
reforms across the fields of economics, governance, security, 
and reconciliation are an important symbol of the fact that 
with President Ghani and Dr. Abdullah, we do have partners that 
we can work with in this effort at reform.
    Mr. Engel. Thank you very much, and thank you, Madam Chair. 
I appreciate it.
    Ms. Ros-Lehtinen. Thank you, Mr. Engel. We are honored by 
your presence and thank you for the questions.
    And I would like to recognize Ambassador Wagner to take 
over our part of the subcommittee--joint subcommittee hearing.
    Thank you, Ambassador.
    Mrs. Wagner. [presiding]. Thank you. The Chair now 
recognizes the gentleman from California, Mr. Rohrabacher, for 
5 minutes for questioning.
    Mr. Rohrabacher. The American people have every right to be 
concerned when we are talking about putting more troops into 
Afghanistan, considering the fact that we have been there as 
long as we have, and been suffering casualties. The 2,400 dead 
does not include the wounded that we have had in Afghanistan, 
which is a tremendous cost to families across our country. And 
I think that it behooves decision-makers, if they are going to 
try to use military force as a political tool, achieving 
political ends, that we are also looking at what is necessary 
for that to succeed. Let me just know that I am not as great an 
expert as probably either one of you are, but I do have a long 
history in Afghanistan. And the Constitution of Afghanistan, as 
far as I can see, and people I know who are totally immersed in 
Afghan culture, are constitutionally foisted on these people is 
totally contrary to their culture, say, centralized in Kabul 
power when, in fact, Afghanistan has the most decentralized 
social framework of any country I know. I mean, it goes right 
down to the village level, village family tribal, and then 
provincial, and ethnic, and then way back up to Kabul. Are we 
going to be making any changes in the Constitution that so far 
has not succeeded?
    Ambassador Wells. If I could start on the question of the 
use of military force. I agree with you, sir, it is--it is an 
awesome responsibility. The troops that are going in today are 
performing a very different function. It is a train, advise, 
and assist function. It is----
    Mr. Rohrabacher. I would like an answer to my question.
    Ambassador Wells. Absolutely.
    Mr. Rohrabacher. Are we doing----
    Ambassador Wells [continuing]. On the Constitution----
    Mr. Rohrabacher [continuing]. Any reform of the 
Constitution and the way the government works?
    Ambassador Wells. The Constitution is an Afghanistan 
document.
    Mr. Rohrabacher. We foisted that on them. I was there when 
we did.
    Ambassador Wells. And it was endorsed by Loya jirga, but 
underneath the Constitution, within the Constitution, there is 
the ability for the Afghan Government to amend its 
Constitution. It can follow its own Constitution----
    Mr. Rohrabacher. Are there moves to do that? Are there 
efforts to do that?
    Ambassador Wells. I am not aware that there are efforts 
now.
    Mr. Rohrabacher. Obviously, the Constitution has not worked 
to create a better Afghanistan, because we are talking about 
sending more troops into Afghanistan.
    Let me ask this: Fifteen years ago, we developed a fungus 
that could be dropped from the air and would affect only the 
poppy plants, and would eliminate the poppy production for not 
only that year, but for 10 years, but would affect no other 
crop. Are you aware of that?
    Ambassador Wells. I am not aware of the program.
    Mr. Rohrabacher. Are you aware of that?
    Mr. Huger. No, sir, I am not.
    Mr. Rohrabacher. Well, let me note for the record, I have 
stated this publicly, stated in hearings like this. Obviously, 
our government has not been willing to stop the poppy 
production. That is a major source of revenue for those people 
who have been killing and maiming our American soldiers who 
have gone to Afghanistan.
    As far as Pakistan, let me ask you this about Pakistan. So 
you have stated Pakistan has been our partner? You had 
mentioned partner?
    Ambassador Wells. In combating al-Qaeda, and currently in 
combating ISIS, we have worked closely with Pakistan and 
achieved significant results. Historically, you know the Cold 
War history. But more recently, there are elements of 
partnership, and then elements of extreme disagreement, which 
is the focus of the south Asia strategy today.
    Mr. Rohrabacher. Let me just note that in--when 9/11, which 
got us all involved in this, 9/11, I think there were two 
Afghans involved in 9/11, and the rest were Saudis, and it was 
planned in Pakistan. And, you know, we have had, as I say, 
suffering--the Pakistani people are suffering under their own 
government. And I think before we commit more troops to that 
part of the world, we should certainly seek changes in the way 
those areas are governed, or all we are doing is condemning 
more people to die and to be maimed.
    And, Madam Chairman, this is a very serious issue. And we 
know we are up against radical Islam. But we can't just solve 
it by thinking--I don't buy any of the reforms that you have 
been talking about are going to make any difference in 
Afghanistan, because you haven't gone to the heart of what 
isn't working. And if we just send more troops, we are going to 
have more dead bodies, and it doesn't make sense to me.
    Mrs. Wagner. The gentleman's time has expired.
    The Chair now recognizes the ranking member of the Asia 
Subcommittee, the gentleman from California, Mr. Sherman, for 5 
minutes.
    Mr. Sherman. Ambassador, in private conversations with the 
Pakistani leaders, do they tacitly admit that at least elements 
of their government were aware where bin Laden was? Or do they 
stick to the talking point that, oh, we were looking for him, 
every element of the Pakistani Government was looking for him, 
we just couldn't find him?
    Ambassador Wells. Sir, I have never heard any Pakistani 
leader suggest that Pakistan knew where Osama bin Laden was 
located.
    Mr. Sherman. And they tend to suggest that they were 
looking real hard and they just couldn't find him.
    Since 2001, we have provided over $100 billion of economic 
and security assistance to Afghanistan, not to mention the 
blood and treasure of fighting the war, and $20 billion of 
economic assistance and military assistance to Pakistan. I want 
to focus a little bit on human rights. The Human Rights 
Commission of Pakistan reported over 700 people were 
disappeared, kidnapped, never heard of again. And that is just 
in 2016. Elements of the Pakistani government and military just 
see it as a good political tactic to cause their opponents to 
disappear.
    Ambassador, I would like to get you to focus on one 
particular incident. Two years ago, in November 2015, Sindhi 
leader Dr. Anwar Laghari was brutally murdered in Pakistan. The 
Pakistani Government has not been responsive to numerous 
inquiries about that murder, and he was murdered while he was 
conducting political activities. His perpetrators have not been 
brought to justice. Days before his death, he had sent a 
memorandum to the U.S. Government about human rights violations 
by Pakistani security forces.
    But now here is the new information. Just a few days ago, 
Dr. Anwar Laghari's son, Asad Laghari, was found dead in 
suspicious circumstances, very possibly poisoned. I had met 
with Asad Laghari when he was in Washington. He was pursuing a 
master's degree at Mehron University of Engineering and 
Technology at its U.S.-Pakistan Center for advanced studies in 
water.
    What is suspicious about this is that Asad Laghari's death 
comes just weeks after I had, along with six other Members of 
this House, sent a letter focusing on human rights issues in 
Sindh. And that letter especially focused on disappearances, 
murders, extrajudicial killings. To what extent does the 
administration take up these human rights issues and 
disappearances with the Pakistani Government? And to what 
extent was the issue of human rights and disappearances in 
Sindh been raised at the recent visits to Pakistan by yourself 
and by Secretary Tillerson?
    Ambassador Wells. So we regularly raise the human rights 
situation in Pakistan. As you know, our human rights report on 
Pakistan is quite candid about the--you know, the 
disappearances, the other abuses that we see, and that 
organizations inside of Pakistan, including journalists and 
human rights organizations themselves, document. And, so, this 
is a serious concern.
    Mr. Sherman. And did Secretary Tillerson bring this up 
directly and orally in his conversations?
    Ambassador Wells. I am not able to comment on whether he 
brought them up directly, but I can assure you----
    Mr. Sherman. How about you?
    Ambassador Wells [continuing]. That we bring them up 
directly, the Ambassador and the consulate----
    Mr. Sherman. Can I ask you to personally bring up, with 
high-level Pakistani authorities, the November 2015 death of 
Dr. Anwar Laghari and the death just a few weeks ago of Dr. 
Laghari's son, Asad Laghari?
    Ambassador Wells. Yes, sir.
    Mr. Sherman. Thank you.
    Shifting to Pakistan, any chance that the doctor who helped 
us, I believe his name is pronounced, Dr. Afridi, is going to 
be released?
    Ambassador Wells. We continue to raise Dr. Afridi's case in 
every high-level encounter, and we have not yet seen the 
Pakistani Government move to do so. As you know, we have 
withheld $100 million in assistance as a result of his 
continued incarceration.
    Mr. Sherman. Not enough. Let's do more.
    I was going to bring up, for the record, the issue of 
Ahmadi Muslims. Sorry for the mispronunciation, but I want to 
pick up on Dana Rohrabacher's point. Is it the policy of the 
United States in Afghanistan to destroy poppy crops to the full 
extent that that can be done without destroying legitimate 
agriculture?
    Ambassador Wells. The destruction of poppy crops is always 
sensitive, and our policy has always been to support the 
destruction of poppy crops in areas where local leaders agree 
to this strategy. For most local leaders, this is difficult 
because of who is impacted most directly, which is the local 
farmer. So, sir, I recognize the concern, its attention. But, 
at this stage, the overwhelming majority of poppy is being 
produced in Taliban-controlled and Taliban-contested areas. The 
Taliban has become addicted to the drug trade, which is, you 
know, why we do need to go after the next higher level of 
drug----
    Mr. Sherman. Well, it is hard to go back to my district and 
say we died by the thousands to protect poppy farmers that are 
sending heroin to the United States, because that is the crop 
that they prefer to grow and we don't want to be unpopular with 
them.
    Ambassador Wells. But we are, sir, working very closely 
with the police forces, the counternarcotics police forces, and 
the two specialized units that we helped set up to target the 
next level up quite aggressively in order to try to----
    Mrs. Wagner. The gentleman's time has expired.
    The Chair now recognizes herself for 5 minutes. So I say 
welcome to the witnesses, especially Mr. Huger, who hails from 
Missouri's Second Congressional District and is a Priory 
graduate, and your daughters, a graduate of my alma mater. So, 
welcome, sir.
    The continued involvement of the Pakistan military in the 
civilian government is damaging to the country. Assistant 
Secretary Wells, my understanding is that the fiscal year 2018 
request for Pakistan's IMET account is five times the amount 
request for fiscal year 2016. Can you please explain this 
increase in IMET funding, what it will be used for, and what 
the figure is, please?
    Ambassador Wells. IMET funding has been a useful tool for 
us to establish relations with members of the Pakistani 
military and through those training courses, to try to 
inculcate some of the values that we believe are essential to 
appropriate civilian military relations in any country, 
certainly in any democratic country.
    Mrs. Wagner. I am glad you mention values, Ambassador 
Wells. Does the IMET program contain coursework on human rights 
and democracy? And I do have some concerns as to why it was 
increased five times the amount since fiscal year 2016.
    Ambassador Wells. I would have to check on the number being 
a five times increase. I am sorry I can't respond to that. But, 
traditionally, our IMET courses do have a very heavy component 
of rule of law, of respect for--you know, of how a military 
operates, and more time--respect for human rights. And so, yes, 
that is a critical component of many of our IMET programs.
    Mrs. Wagner. I don't believe that the program does include 
specific and vigorous coursework on human rights and democracy. 
So I would like you to----
    Ambassador Wells. I will take that back.
    Mrs. Wagner [continuing]. To take that back and put forward 
some of the coursework. And I would also like an exact number 
and some reasoning as to why it was increased five times from--
in 2018 over fiscal year 2016.
    [The information referred to follows:]
Written Response Received from the Honorable Alice G. Wells to Question 
          Asked During the Hearing by the Honorable Ann Wagner
    The Administration's request for Fiscal Year 2018 actually 
decreases the level of funding for the IMET program in Pakistan to $3.5 
million, or approximately 27 percent lower than the Fiscal Year 2016 
level of $4.8 million.
    Since Fiscal Year 2010, the following IMET-funded programs for 
Pakistan have included human rights, democratic norms, rule of law, 
and/or civil-military cooperation in their curricula:

        <bullet>  Gender-Based Violence and Women's Health;
        <bullet>  Law of Armed Conflict and Human Rights;
        <bullet>  Legal Aspects of Defense Support for Civil 
        Authorities;
        <bullet>  Civil-military Responses to Terrorism;
        <bullet>  Legal Aspects of Combatting Terrorism;
        <bullet>  Military Judge Course;
        <bullet>  International Law of Military Operations;
        <bullet>  Military Police Basic Leadership Course;
        <bullet>  Military Police Captains Career Course;
        <bullet>  Judge Advocate Staff Officer course;
        <bullet>  Operations Law;
        <bullet>  International Military Law Development Program;
        <bullet>  International Military Law; and
        <bullet>  Military and Peacekeeping Operations Law.

    Additionally, senior Professional Military Education (PME) 
programs, such as the war colleges, staff colleges, and National 
Defense University, all include democratic norms and human rights in 
their curricula.
                               __________

    Mrs. Wagner The administration's funding request for the 
International Narcotics Control and Law Enforcement Program 
would decrease the Afghanistan account by nearly 50 percent, 
and the Pakistan account by nearly 40 percent. My understanding 
is that this account is used to support criminal justice 
institutions and the judicial sector, fight corruption, and 
reform security forces. Assistant Secretary Wells, is this how 
this account was used in Afghanistan and Pakistan? And what 
gains does the administration hope to make by cutting this 
program?
    Ambassador Wells. We have supported these programs for many 
years at significant amounts of funding and have to show for 
it, you know, specialized structures now, institutions that 
have been developed, counternarcotics police forces that have 
been stood up, special investigative units that are working in 
conjunction with our drug enforcement agency. And so the cut in 
funding also reflects the idea that having stood up these 
institutions, we are able to transfer now the responsibility to 
these host government agencies while continuing to work with 
them in partnership.
    Mrs. Wagner. And you believe these institutions have, in 
fact, been stood up and are, in fact, fighting corruption and 
reforming--and reformers have been put in place in the security 
sector?
    Ambassador Wells. We have stood up these institutions. We 
continue to work with them and to mentor them. But the change 
in funding reflects a shift, again, toward shifting the 
responsibility to the host government.
    Mrs. Wagner. I just want to make sure that we are shifting 
priorities, especially as I see IMET plussed-up over five 
times, that we are also shifting toward increased human rights 
and democracy programs at all levels. Thank you.
    Mr. Huger, is the administration intending to reduce the 
democracy and governance programs that we fund in these 
countries of Afghanistan and Pakistan?
    Mr. Huger. We are focusing our efforts on the points that I 
mentioned. Within them is--helped to reduce corruption and to 
have credible elections in Afghanistan, and to help Pakistan 
establish governance in the ungoverned area of FATA. FATA has 
had the Frontier Crimes Regulation since 1902 when the British 
established it. And there is significant will among the people 
in FATA to normalize their legal framework. So our emphasis on 
normalizing the border area will include helping the government 
establish local jurisdictions that can respond to the needs and 
desires of the population.
    So we intend to have a very significant focus on governance 
and Democratic elections in both countries.
    Mrs. Wagner. Great. Thank you, Mr. Huger. My time has 
expired.
    The Chair now recognizes the gentleman from Alabama, Mr. 
Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Madam Chairman.
    I have got some comments, and I am going to ask some 
questions.
    This war began in 2001. Now it is ongoing for roughly 16 
years. That is the longest active military conflict in the 
history of the United States. Early on, the Taliban government 
was toppled, and al-Qaeda, to a very large degree, was 
destroyed. And, quite frankly, goals were achieved. Our 
American military won.
    Later on, Osama bin Laden was killed as a result of our 
presence in Afghanistan. Another goal was achieved, and 
America's military won yet again. However, we have persisted in 
Afghanistan, despite those victories and achievements by our 
military. And the cost, in monetary terms, is estimated to be 
as low at $800 billion to $1 trillion, as high as $4 trillion 
to $6 trillion, when including ``long-term medical care and 
disability compensation for servicemembers, veterans and 
families, military replenishment and social costs,'' according 
to a study by Harvard economist Linda Bilmes.
    Moving on, in a more difficult part of the cost are lives 
lost and casualties incurred. We have had roughly--well, more 
than 2,000 American military personnel who have lost their 
lives, roughly 1,000-plus American contractors, civilians, who 
have been serving in this war zone who have also lost their 
lives. And we have had roughly 20,000 wounded American 
casualties, many of whom have come home with debilitating 
injuries.
    We had a protester at the beginning of this hearing, and I 
am going to make some comments about him. The protester's 
remarks were about: How long are we going to stay in 
Afghanistan? And, quite frankly, in my judgment, those views 
reflect the views of a growing number of American citizens who 
grow justifiably weary of America's treasury spent, American 
lives lost, and American men and women coming home horribly 
injured and permanently disabled.
    Earlier this year, on August the 21st of 2017, the 
President, in a speech, stated, ``My original instinct was to 
pull out, and, historically, I like following my instinct.'' 
Someone apparently persuaded President Trump to disregard his 
instinct, and, rather than pull out, we are now looking at a 
dramatic increase in our troop levels and ultimately our 
casualties and our costs.
    So I want to get back to one of the questions that was 
raised by an audience member. How long are we looking at before 
we can declare victory? We didn't do it after we toppled the 
Taliban and debilitated al-Qaeda. We didn't do it after Osama 
bin Laden was killed and justice obtained. Are you talking 
years? Are you talking decades? And at what cost?
    Ambassador Wells, in your judgment, are we talking years or 
are we talking decades?
    Ambassador Wells. I am sorry, I can't answer that question. 
But I would note, as the President said in his speech, that the 
reason he reverted was because he was convinced that the 
national--the threat to our own national security remained. And 
if you look----
    Mr. Brooks. Well, okay, I am sorry. That is not answering 
my question. But nonetheless, I am going to follow up on your 
comments. I am also familiar with his speech and he is talking 
about terrorists, correct? Please, for the record, state yes, 
not just nod your head.
    Ambassador Wells. Yes.
    Mr. Brooks. Okay. Does that justify then us invading every 
single other country on the planet in which there are al-Qaeda 
or Islamic State forces? Is that the suggestion there, that 
that is the justification for still being in Afghanistan 
despite this already about being the longest active military 
engagement in the history of the United States?
    Ambassador Wells. Sir, I think this is specific to 
Afghanistan's role as being a launching pad for the attack on 
9/11.
    Mr. Brooks. But we have killed those people.
    Ambassador Wells. Al-Qaeda continues to operate----
    Mr. Brooks. But al-Qaeda continues to operate in a dozen, 
at least a dozen, other countries in the Middle East, and in 
Africa, and in Asia. But let's get back to Afghanistan more 
particularly. Is it your testimony that you have no judgment, 
no insight whatsoever, on behalf of this administration, that 
will help the American people ascertain how many more lives 
will be lost, how many more of our American troops will come 
home disabled, and how many more years we will be there, and at 
what great cost? You have no estimate whatsoever?
    Ambassador Wells. So the judgment is that there are 
multiple terrorist groups operating in ungoverned spaces in 
Afghanistan.
    Mr. Brooks. Okay. That is not answering my question, 
Ambassador Wells. My question is, do you have a judgment as to 
the length of time--I am not asking for an explanation. I am 
already at the end of my 5-minute remarks. But do you have an 
estimate of the length of time and how much more cost there is 
going to be to the American people with this engagement in 
Afghanistan?
    Ambassador Wells. The President's strategy specifically 
does not attach a calendar to this commitment----
    Mr. Brooks. I understand the President----
    Ambassador Wells [continuing]. Because it will be 
conditions-based. And so I am not able to answer you on how 
long this will take.
    Mr. Brooks. So it could be decades?
    Ambassador Wells. We would like to get to the negotiating 
table as soon as possible.
    Mr. Brooks. It could be decades, and thousands more of 
American lives lost, tens of thousands more of American lives 
coming home disabled, and trillions of dollars spent that we 
don't have, can't afford to get other than by borrowing, and we 
can't afford to pay back. Is that your testimony?
    Ambassador Wells. We would like to get to the negotiating 
table as soon as possible.
    Mrs. Wagner. The gentleman's time has expired.
    Mr. Brooks. Thank you.
    Mrs. Wagner. Seeing no more members present in committee, I 
would like to thank the witnesses for their testimony here 
today, and I would declare the Joint Middle East and Asia 
Subcommittee hearing on the President's Plan for Afghanistan 
and Pakistan adjourned.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
         
   
                                 [all]
                                 
                                 
                                 
</pre></body></html>
